No.

 

 

IN THE

Supreme Court of the United States

THE LITTLE SISTERS OF THE POOR
JEANNE JUGAN RESIDENCE,
Petitioner,

Vv.

THE STATE OF CALIFORNIA, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,099 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
